No. 19-783
In the

Supreme Court of the United States
__________________

NATHAN VAN BUREN,
v.
UNITED STATES,
__________________

Petitioner,

Respondent.

On Writ of Certiorari to the
United States Court of Appeals
for the Eleventh Circuit

__________________

AMICUS CURIAE BRIEF OF THE ASSOCIATION
OF MEDICAL DEVICE REPROCESSORS IN
SUPPORT OF PETITIONER

__________________

JEFFREY L. BERHOLD
JEFFREY L. BERHOLD, P.C.
1230 Peachtree St.
Suite 1050
Atlanta, GA 30309
(404) 872-3800

STEPHEN D. TERMAN
Counsel of Record
J. MASON WEEDA
OLSSON FRANK WEEDA
TERMAN MATZ PC
2000 Pennsylvania Ave., NW
Suite 3000
Washington, D.C. 20006
(202) 789-1212
sterman@ofwlaw.com
Counsel for Amicus Curiae

July 7, 2020
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . . ii
INTEREST OF THE AMICUS CURIAE . . . . . . . . . 1
SUMMARY OF ARGUMENT . . . . . . . . . . . . . . . . . . 6
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
I.

MEDICAL DEVICE REPROCESSING IS
PART OF A LONG HISTORY IN THE LAW
OF THE RIGHT TO REPAIR . . . . . . . . . . . . . 8

II.

MANY MODERN-DAY MEDICAL DEVICES
ARE “PROTECTED COMPUTERS” UNDER
THE CFAA. . . . . . . . . . . . . . . . . . . . . . . . . . . 10

III.

THE INTRUSION THEORY OF LIABILITY
PRESERVES THE COMMON-LAW RIGHT
TO REPAIR . . . . . . . . . . . . . . . . . . . . . . . . . . 12

IV.

THE MISAPPROPRIATION THEORY OF
LIABILITY EXPOSES A SIGNIFICANT
AND GROWING SHARE OF MEDICAL
DEVICE REPROCESSING ACTIVITY TO
POTENTIAL CRIMINAL AND CIVIL
LIABILITY. . . . . . . . . . . . . . . . . . . . . . . . . . . 14

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

ii
TABLE OF AUTHORITIES
CASES
Champion Spark Plug Co. v. Sanders,
67 S. Ct. 1136 (1947). . . . . . . . . . . . . . . . . . . . . . . 8
Clark v. Martinez,
125 S. Ct. 716 (2005). . . . . . . . . . . . . . . . . . . . . . 16
hiQ Labs, Inc. v. LinkedIn Corp.,
938 F.3d 985 (9th Cir. 2019). . . . . . . . . . . . . . . . 12
Impression Prod., Inc. v. Lexmark Int’l, Inc.,
137 S. Ct. 1523 (2017). . . . . . . . . . . . . . . . . . . . . . 8
Kirtsaeng v. John Wiley & Sons, Inc.,
133 S. Ct. 1351 (2013). . . . . . . . . . . . . . . . . . . . . 14
Philips Med. Sys. Puerto Rico Inc. v. GIS Partners
Corp., 203 F. Supp. 3d (D.P.R. 2016) . . . . . . . . . 10
Prestonettes, Inc. v. Coty,
264 U.S. 359 (1924). . . . . . . . . . . . . . . . . . . . . . . . 8
Storage Tech. Corp. v. Custom Hardware Eng’g &
Consulting, Inc.,
421 F.3d 1307 (Fed. Cir. 2005) . . . . . . . . . . . . . . . 9
U.S. v. Nosal,
676 F.3d 854 (9th Cir. 2012). . . . . . . . . . . . . . . . 11
United States v. Valle,
807 F.3d 508 (2d Cir. 2015) . . . . . . . . . . . . . 12, 13
Universal Instruments Corp. v. Micro Sys.
Eng’g, Inc., 924 F.3d 32 (2d Cir. 2019). . . . . . . . . 9

iii
WEC Carolina Energy Sols. LLC v. Miller,
687 F.3d 199 (4th Cir. 2012). . . . . . . . . . . . . . . . 12
STATUTES
17 U.S.C. § 117(a). . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
17 U.S.C. § 1201(a). . . . . . . . . . . . . . . . . . . . . . . . . . . 8
18 U.S.C. § 1030(a)(2)(C) . . . . . . . . . . . . . . . . . . . . . 10
18 U.S.C. § 1030(e)(1). . . . . . . . . . . . . . . . . . . . . . . . 10
18 U.S.C. § 1030(e)(2)(B) . . . . . . . . . . . . . . . . . . . . . 10
18 U.S.C. § 1030(e)(6). . . . . . . . . . . . . . . . . . . . . . . . 12
18 U.S.C. § 1030(e)(8). . . . . . . . . . . . . . . . . . . . . . . . 16
18 U.S.C. § 1030(g). . . . . . . . . . . . . . . . . . . . . . . . . . 16
REGULATIONS
21 C.F.R. § 820.30 . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
21 C.F.R. § 820.30(f). . . . . . . . . . . . . . . . . . . . . . . . . 11
21 C.F.R. § 820.30(g) . . . . . . . . . . . . . . . . . . . . . . . . 11
OTHER AUTHORITIES
Jessica Kim Cohen, Modern Healthcare, Medical
Device Reprocessing Saved Providers $470
million last year, (July 29, 2019) . . . . . . . . . . . . . 3
Orin S. Kerr, Vagueness Challenges to the Computer
Fraud and Abuse Act, 94 Minn. L. Rev. 1561
(2010). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

iv
Terrence J. Loftus, A Comparison of the Defect Rate
Between Original Equipment Manufacturer and
Reprocessed Single-Use Bi-Polar and Ultrasound
Diathermy Devices, 9 J. Med. Devices 4 (Dec.
2015) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
S. Rep. 104-357 (1996) (Jud. Comm. Rep.) . . . . . . . 12
Scott Unger and Amy Landis, Journal of Cleaner
Production, Assessing the Environmental,
Human Health, and Economic Impacts of
Reprocessed Medical Devices in a Phoenix
Hospital’s Supply Chain, (January 20, 2016) . . . 4
U.S. Government Accountability Office, GAO-08147, Reprocessed Single-Use Medical Devices:
FDA Oversight Has Increased, and Available
Information Does Not Indicate That Use Presents
an Elevated Health Risk (Jan. 2008) . . . . . . . . . . 3
U.S. News Best Hospitals by Specialty 2019-2020,
National Rankings “ (Aug, 14, 2018), available at
https://health.usnews.com/best-hospitals/rankings
........................................ 5

1
INTEREST OF THE AMICUS CURIAE1
The Association of Medical Device Reprocessors
(“AMDR”) is a non-profit trade organization
representing FDA-regulated firms that collect, clean,
repair, disinfect and/or re-sterilize (among other steps)
medical devices marketed by the original equipment
manufacturer (“OEM”) for “single use.” AMDR’s
interest in this case is the reasonable and fair
application of the Computer Fraud and Abuse Act
(“CFAA”) as it may relate to reprocessing of medical
device and medical device components.
The single use devices (“SUD”) that AMDR
members reprocess are diverse and include, without
limitation, cardiovascular, general surgery, patient
monitoring and compression therapy, and orthopedic
medical devices. AMDR members provide hospitals
with safe and effective reprocessed devices, which
lower healthcare costs, ensure a stable supply chain,
help expand patient access to treatments, and reduce
the adverse environmental impact of medical waste.

1

No party nor its counsel authored this brief in whole or in part or
contributed money to fund preparing or submitting this brief. No
person or their counsel, other than the amicus party or its
members (Innovative Health, Medline ReNewal, Nescientific,
REnu, a subsidiary of Arjo, Inc., Stryker Sustainability Solutions,
Inc., a wholly-owned subsidiary of Stryker Corporation,
Sustainable Technologies, a Cardinal Health business, and
Vanguard AG) contributed money intended to fund preparing or
submitting the brief. Petitioner, Van Buren, filed a letter of
blanket consent to amici. Respondent, United States, granted
consent to amicus curiae AMDR on June 8, 2020 via electronic
mail.

2
Many SUDs can be reprocessed safely pursuant to
Food and Drug Administration (“FDA”) regulations.
Commercial SUD reprocessors are regulated as
“manufacturers” and are subject to the same
requirements as the OEM, including:
• Registering all reprocessed products
• Obtaining premarket clearance or approval
• Compliance
regulation

with

FDA’s

quality

system

• Submitting adverse event reports
• Tracking devices whose failure could have
serious outcomes
• Correcting or removing from the market unsafe
devices
• Meeting labeling requirements
• Submitting the reprocessing facilities to regular
inspection
Perhaps most significantly, before a reprocessed
medical device can be marketed or sold, a reprocessor
must demonstrate—and FDA must agree—that the
reprocessed device is “substantially equivalent” in
terms of safety and efficacy to the device manufactured
by the OEM, i.e., the “predicate device.” In fact, SUD
reprocessors are held to higher premarket
requirements than OEMs, as reprocessors must submit
additional validation and testing data not required of
the original device manufacturer.

3
At least one study has confirmed that certain OEM
devices had a higher defect rate than the reprocessed
versions of those same devices,2 and a number of
Government Accountability Office (GAO) reports have
generally underscored FDA’s own data showing clinical
“confidence in reprocessed SUDs, with some
participants stating that there were actually fewer
performance problems with reprocessed SUDs than
with new SUDs.”3
The savings realized through the use of reprocessed
SUDs allows hospitals and healthcare providers to cut
costs significantly and redirect those funds, for
instance, toward hiring more medical professionals,
expanding patient access to procedures, or investing in
newer technology, which ultimately enhances and
improves patient care. In 2018, AMDR members saved
hospitals nearly $500 million.4 Similar to use of a
generic drug, the savings associated with the use of
reprocessed SUDs is significant in a world of escalating
healthcare costs.

2

Terrence J. Loftus, A Comparison of the Defect Rate Between
Original Equipment Manufacturer and Reprocessed Single-Use BiPolar and Ultrasound Diathermy Devices, 9 J. Med. Devices 4 (Dec.
2015).
3

See U.S. Government Accountability Office, GAO-08-147,
Reprocessed Single-Use Medical Devices: FDA Oversight Has
Increased, and Available Information Does Not Indicate That Use
Presents an Elevated Health Risk, 21 (Jan. 2008).
4

See Jessica Kim Cohen, Modern Healthcare, Medical Device
Reprocessing Saved Providers $470 million last year, (July 29,
2019).

4
Reprocessing also builds resiliency into the
healthcare supply chain. The COVID-19 pandemic
financially devastated U.S. hospitals and exposed
weaknesses in the supply chain, which failed to ensure
adequate personal protective equipment (“PPE”) and
other desperately needed medical devices, some of
which can be reprocessed. Hospital use of existing
medical device and supply assets lessens the need to
acquire more new devices from a global supply chain.
With greater attention now placed on ensuring an
affordable, secure, and reliable supply chain of medical
devices and equipment, reprocessing is, now more than
ever, critically important for U.S. hospitals.
The reprocessing services offered by AMDR
members also have a positive effect on the
environment. AMDR members helped hospitals divert
more than 15 million pounds of waste from landfills in
2018 alone. On average, medical device reprocessing
can divert over 50,000 pounds of medical waste from a
single hospital each year—the equivalent weight of
more than five elephants. Hospitals spend anywhere
from $44 to $68 per ton on waste disposal, which one
study equates to $259 to $401 million spent by
hospitals on waste on an annual basis.5
As a result of the safety profile, strengthened supply
chain and cost and waste savings, reprocessed devices

5

See Scott Unger and Amy Landis, Journal of Cleaner Production,
Assessing the Environmental, Human Health, and Economic
Impacts of Reprocessed Medical Devices in a Phoenix Hospital’s
Supply Chain, (January 20, 2016).

5
are purchased by all “top hospitals” as listed by U.S.
News & World Report6 and are used in all 50 states.
In some instances, and as described in more detail
below, such reprocessed devices may be subject to the
Computer Fraud and Abuse Act (“CFAA” or “Act”),
creating potential civil and/or criminal liability for
reprocessors. While AMDR does not take this view,
some OEMs have attempted to assert that repair or
servicing of medical devices can implicate the CFAA.
Medical technology has advanced significantly since
passage of the CFAA and many medical devices,
including reprocessed medical devices, and their
accompanying generators or consoles, arguably
constitute “computers” or “protected computers” and
contain “information” under the Act.
AMDR is therefore providing the court with the
perspective of medical device reprocessors to ensure
that its ruling does not have an unintended effect on
medical device reprocessors or healthcare delivery
organizations. We request that any civil or criminal
liability for exceeding unauthorized access, as defined
by the Act, be limited to the intrusion theory of
liability.

6

See “U.S. News Best Hospitals by Specialty 2019-2020, National
Rankings “ (Aug, 14, 2018), available at https://health.usnews.com/
best-hospitals/rankings.

6
SUMMARY OF ARGUMENT
The right to repair and reprocess has been part of
our common law for centuries. The owner of a device
has never lost the right to operate, repair, and
maintain their device throughout developments in
patent, trademark, and copyright law. In that spirit,
FDA has created a regulatory process for specialized
companies to reprocess medical devices for healthcare
providers.
The CFAA was passed in 1986 to target serious
computer crimes and has been interpreted to have
broader applicability than intended by Congress.7 Not
surprisingly, many single-use medical devices (devices),
along with the systems powering and controlling them
(generators and consoles), purportedly fall under the
scope of the CFAA. AMDR members reprocess many
such single-use devices, e.g., laparoscopic
electrosurgical devices including ultrasonic scalpels,
diagnostic electrophysiologic and ultrasound cardiac
catheters, and pulse oximeter sensors. Such devices
may connect directly, or indirectly through an
operating system on the generator or console, to the
internet.
This case presents a question of great importance to
the repair industry generally and medical device
reprocessors specifically. Medical device reprocessing
is entirely lawful under the intrusion theory of liability
evolving in the Second, Fourth, and Ninth Circuits.
The reprocessor is accessing information from devices
7

Orin S. Kerr, Vagueness Challenges to the Computer Fraud and
Abuse Act, 94 Minn. L. Rev. 1561, 1564 (2010).

7
acquired from healthcare providers. There is no
malicious hacking, i.e., breach of security, on someone
else’s device. In enacting and amending the statute,
Congress showed no intent to reach more broadly to
encroach on the right to repair.
On the other hand, a broad interpretation of
“exceeds authorized access” may put the right to repair
and reprocess in jeopardy. The misappropriation
theory of liability would allow the OEM to impose
terms of use on the device preventing downstream
device owners from repairing or reprocessing the
device. AMDR would not presume to be able to
imagine all of the ways in which OEMs would set out
language in customer contracts, product labels, and
onscreen warnings, among other means, that would
constrain the ability of the medical device reprocessor
to access information on the device and system
connected to it. Again, these devices are owned by the
healthcare provider or medical device reprocessor. Yet,
the OEM would be able to restrain the right to repair.
This Court has always presumed that Congress did
not intend to limit the common-law right to repair in
the absence of evidence to the contrary. It has been
true of patent and trademark law alike. The stakes are
just as high in interpreting the CFAA. The statute now
reaches many modern-day medical devices, as well as
billons of smart phones, household appliances, and
motor vehicles. The right to repair lowers costs,
preserves quality, and reduces waste. It is an essential
part of the American free enterprise system and its
“can-do” attitude. AMDR respectfully requests that
this Court interpret “exceeds authorized access” under

8
the intrusion theory of liability to preserve the
longstanding right to repair or reprocess medical
devices – and any other “protected computer” – under
the CFAA.
ARGUMENT
I.

MEDICAL DEVICE REPROCESSING IS
PART OF A LONG HISTORY IN THE LAW
OF THE RIGHT TO REPAIR

The courts and legislatures of this country have
long recognized that the ownership of property includes
the right to repair that property. In fact, the common
law has frowned upon restraints on the alienation of
chattels for centuries. Impression Prod., Inc. v.
Lexmark Int’l, Inc., 137 S. Ct. 1523, 1531–32 (2017).
That common-law right to repair is recognized in the
law of patent, copyright, and trademark. For example,
the doctrine of patent exhaustion recognizes that the
first sale terminates the patent rights in those goods.
Id. at 1532. A repair shop is free to restore and sell
used cars without fear of infringing a patent in the car
or any existing or replacement parts. Id.
Nor does a repair of a trademarked product form
the basis for liability under trademark law. Champion
Spark Plug Co. v. Sanders, 67 S. Ct. 1136, 1139 (1947),
Prestonettes, Inc., v. Coty, 264 U.S. 359, 368 (1924).
Furthermore, copyright law expressly provides for the
modifications of the software on a device that are
essential for the continued use of the device.8
8

Nor would a repair shop violate the anticircumvention provision
of the Digital Millennium Copyright Act, 17 U.S.C. § 1201(a), by
circumventing encryption on a device to gain access to information

9
Universal Instruments Corp. v. Micro Sys. Eng’g, Inc.,
924 F.3d 32, 46 (2d Cir. 2019) (citing 17 U.S.C.
§ 117(a)).
The FDA has taken the same view toward the right
to repair and reprocess medical devices specifically.
Healthcare providers have always had the right to
repair and reprocess their own medical devices, subject
to FDA or other requirements. With advances in
technology, however, they must depend more and more
on third parties specializing in repair and reprocessing
of complex medical devices. As discussed above, FDA
regulates medical device reprocessors as medical device
manufacturers, and requires reprocessors to obtain a
premarket clearance prior to reprocessing a SUD. The
FDA clearance process is designed to determine
whether the reprocessor has established, through
testing and validation, that the SUD maintains its
safety and effectiveness after reprocessing. 21 C.F.R.
§ 820.30. Since regulation of SUD reprocessing began
twenty years ago, healthcare providers have been
increasingly exercising their right to repair and
reprocess SUDs through regulated, commercial medical
device reprocessing firms to reduce costs, improve
service, and prevent waste.

on the device solely for purposes of maintenance and repair.
Storage Tech. Corp. v. Custom Hardware Eng’g & Consulting, Inc.,
421 F.3d 1307, 1318 (Fed. Cir. 2005).

10
II.

MANY MODERN-DAY MEDICAL DEVICES
ARE “PROTECTED COMPUTERS” UNDER
THE CFAA

Under the CFAA, you may not “exceed authorized
access” of a “computer” and thereby obtain information
from a “protected computer.” 18 U.S.C. § 1030(a)(2)(C).
Computer “means an electronic, magnetic, optical,
electrochemical, or other high speed data processing
device performing logical, arithmetic, or storage
functions, and includes any data storage facility or
communications facility directly related to or operating
in conjunction with such device…” 18 U.S.C.
§ 1030(e)(1). Not surprisingly, many medical devices fit
the statutory definition of computer – including
biometric sensors, inhalers and pumps, and CT and
MRI scanners. See, e.g., Philips Med. Sys. Puerto Rico
Inc. v. GIS Partners Corp., 203 F. Supp. 3d 221, 231
(D.P.R. 2016) (reasoning that a computer controls the
operation of MRI machines). The SUDs reprocessed by
AMDR members are arguably electronic devices
“performing logical, arithmetic, or storage functions.”
18 U.S.C. § 1030(e)(1). Moreover, as the medical device
industry quickly evolves, AMDR expects to see more
and more devices that perform such functions.
In addition, these devices routinely fall under the
definition of “protected computers” as they are
“affecting interstate commerce.”
18 U.S.C.
§ 1030(e)(2)(B). New and reprocessed medical devices
are sold and shipped across state lines in nationwide
and worldwide markets. Moreover, the reprocessed
medical device may be considered part of a larger
“protected computer.” Many reprocessed medical

11
devices are physically connected to a larger interface,
a generator or console, on site to power and control the
device. Since FDA requires both the OEM and the
reprocessor to verify and validate that the design of the
device works as it is intended, see 21 C.F.R. § 820.30(f)(g), the reprocessor may need to access information
stored on the device to ensure that the device is
functioning properly and communicating with the
ancillary generator or console interface. By way of
example, an OEM may design an SUD to cease working
after a single use when subsequently connected to a
generator or console. Under these circumstances, a
reprocessor would need to access a console to ensure
the SUD communicates properly allowing an additional
use.
Furthermore, such systems are sometimes
connected to the internet. The broad definition of
“protected computer” – “affecting interstate commerce”
– effectively includes all “computers with Internet
access.” U.S. v. Nosal, 676 F.3d 854, 859 (9th Cir.
2012).
OEMs routinely update software on the
generators or consoles, sometimes via interstate wires.
OEMs often impose “terms of use” that purport to
govern access and operation of their products, including
single-use medical devices and the generator or console
that may power or control the instrument. The OEM
may attempt to limit access to, or information on, the
device specifically, or the system generally, to hinder
the ability of the hospital to repair or reprocess its
medical devices. The commercial reprocessor is not a
party to any such contractual restrictions. Under such
circumstances, the question is whether Congress
intended to allow OEMs to impose “terms of use” to
limit the longstanding right to repair for modern-day

12
medical devices – or smart phones, household
appliances, or motor vehicles – by amending its terms
of use language delineating when the user “exceeds
authorized access.”
III.

THE INTRUSION THEORY OF LIABILITY
PRESERVES THE COMMON-LAW RIGHT
TO REPAIR.

AMDR agrees with the Second, Fourth, and Ninth
Circuits that Congress intended the CFAA to apply to
instances of hacking, rather than misappropriation.
hiQ Labs, Inc. v. LinkedIn Corp., 938 F.3d 985, 1000
(9th Cir. 2019), United States v. Valle, 807 F.3d 508,
525 (2d Cir. 2015), WEC Carolina Energy Sols. LLC v.
Miller, 687 F.3d 199, 203 (4th Cir. 2012). “The CFAA
was enacted to prevent intentional intrusion onto
someone else’s computer—specifically, computer
hacking.” hiQ Labs, 938 F.3d at 1000. Congress
enacted the relevant sections of the statute to protect
the “privacy” of “computer information” by outlawing
its “theft” from “private computers.” S. Rep. 104-357,
7 (1996) (Jud. Comm. Rep.). Put simply, the CFAA is
intended to prevent accessing a computer without
authorization, i.e., accessing another person’s device
without permission. Most important for purposes of
this brief, someone “exceeds authorized access” by
breaching a layer of security on someone else’s
computer. Under those circumstances, the hacker is
not “entitled” to be there. 18 U.S.C. § 1030(e)(6).
Medical device reprocessing is lawful and does not
constitute unauthorized access under the intrusion
theory of liability. The reprocessor is not breaking into
another person’s computer. The device owner (e.g., a

13
hospital, or health care provider) explicitly provides
used SUDs to the reprocessor to be reprocessed, which
includes ensuring that the device works with the larger
system. In addition, the medical device reprocessor
takes title to the device, assumes legal responsibility
for it, and markets it as its own SUD, pursuant to FDA
requirements.
Under these circumstances, the
reprocessor is not “breaking and entering” anyone
else’s computer. Valle, 807 F.3d at 525.
Many of these reprocessed SUDs must “talk” with
ancillary equipment, such as generators or consoles.
Such ancillary equipment is not intended for single use
and therefore is not reprocessed. To meet FDA’s
requirements, however, the reprocessor may need to
access information from the generator or console
connected to the SUD to ensure operability of the SUD
for an additional use. The reprocessor will acquire
such equipment for that purpose.
Moreover, the intrusion theory of liability serves the
goals of Congress in enacting the statute – to prevent
danger to life and property arising from malicious
hacking. Clearly, the CFAA makes it a crime to break
into someone else’s device or breach the security of
someone else’s data storage facility. However, it is not
illegal to access any information on your own device, or
data in a storage facility connected to your device to
operate and maintain your device. Under those
circumstances, the information has not been kept
private. As discussed above, the term “computer” is
broad and now includes biometric sensors, surgical
instruments, and delivery devices – as well as
handheld phones, household appliances, and farm

14
tractors. Although the scope of the definition of
“computer” is broad, the balance remains the same – an
individual may repair a device that he/she owns but
may not hack into a device owned by someone else.
In enacting and amending the CFAA, Congress gave
no indication that it intended to limit the right to
repair one’s own property. In the absence of evidence
of such intent, the Court must presume that Congress
intended to retain the right to repair and reprocess
under the common law. Kirtsaeng v. John Wiley &
Sons, Inc., 133 S. Ct. 1351, 1363 (2013). “The ‘first sale’
doctrine is a common-law doctrine with an impeccable
historic pedigree.” Id. The right to repair and reprocess
has continued through the development of the law of
patent, copyright, and trademark, not to mention the
law and regulation of medical devices. The right to
repair and reprocess should survive the CFAA as well.
IV.

THE MISAPPROPRIATION THEORY OF
LIABILITY EXPOSES A SIGNIFICANT
AND GROWING SHARE OF MEDICAL
DEVICE REPROCESSING ACTIVITY TO
POTENTIAL CRIMINAL AND CIVIL
LIABILITY.

The misappropriation theory of liability puts the
right to repair in jeopardy. Some OEMs are hostile to
the right to repair as they see it as a threat to sales of
new replacement devices. Yet the misappropriation
theory would put the OEM in the position of drawing
the line on what constitutes a violation of the statute.
The OEM, rather than the owner, would decide what
“exceeds authorized access” through terms of use. The
OEM would be the proverbial fox in the henhouse. The

15
repair shop would no longer be able to restore a used
car without looking over its shoulder.
The medical device reprocessor would face the issue
as much as any other independent service organization.
Indeed, terms of use are ubiquitous in the medical
device industry, including various restrictions on the
owner and/or end user. At the time of sale, the OEM
typically requires the hospital or provider to agree to
“terms of use.” The “terms of use” can be imposed as
part of the contract, the device label, or be stored on
the device or operating system itself. Those terms of
use could include broad restrictions, e.g., where the
device owner is not to reprocess the device or not resell
the device to a reprocessor. The “terms of use” may
also include more specific restrictions, whereby the
device owner could be restricted from accessing the
device’s programming or code.
The Eleventh Circuit’s misappropriation theory
allows the OEM to argue that the reprocessor is
exceeding access because it is not complying with the
OEM’s “terms of use.”
Under such theory, a
reprocessor could exceed authorized access simply by
doing what is required by FDA regulations to ensure
that the reprocessed medical device is safe and
effective.
The reprocessor may have to obtain
information from the device to test or reset it for an
additional use. Yet restrictive terms of use could lead
to liability under the CFAA when a reprocessor simply
verifies and validates that the device performs as
intended.
Moreover, prosecutorial discretion would not save
reprocessors and other independent service

16
organizations from civil liability for exceeding
authorized access under the CFAA. The interpretation
of “exceeds authorized access” here will apply equally
to civil liability under the CFAA. See, e.g., Clark v.
Martinez, 125 S. Ct. 716, 722 (2005). The statute
includes a private right of action for compensatory
damages and equitable relief for any person who
suffers damages or loss by reason of a violation of the
statute. 18 U.S.C. § 1030(g). Damages mean “any
impairment to the integrity or availability of data, a
program, a system, or information.”
18 U.S.C.
§ 1030(e)(8). Loss includes the cost of “responding to
an offense” or “conducting a damage assessment.”
Once an OEM is able to argue that a reprocessor
“exceeds authorized access” by violating the terms of
use, an OEM could simply point to its own efforts to
investigate any attempt to reprocess its devices as a
basis for bringing an action against the medical device
reprocessor.
Therefore, an overly broad interpretation of
“exceeds authorized access” is no small matter to the
medical device reprocessing industry and to healthcare
providers. To the extent the door is open for OEMs to
use or even attempt to use the CFAA against
reprocessors, the ultimate result would be a decrease in
all of the benefits of reprocessed devices, including cost
savings, a more robust supply chain, and waste
reduction. Such benefits would further decrease as
reprocessors are deterred from innovating and offering
new services. In the era of COVID-19, hospitals are
struggling financially and limiting access to
reprocessed devices will only escalate their costs, and
potentially reduce device availability. And, ultimately,

17
it would be the consumer paying the price, as these
increases in healthcare costs will trickle down to the
patient, employer and taxpayer.
Medical technology in the healthcare industry is
highly regulated and complex, and safety and
innovation are paramount. As with other industries,
the services provided by aftermarket or downstream
servicers, repair and reprocessors are instrumental to
the delivery of life saving medical technologies, while
keeping costs down. AMDR strongly believes that
medical device manufacturers (whether an OEM or
reprocessor) should not be blocked or deterred from
developing life-saving technologies; nor does AMDR
believe that Congress intended for the CFAA to be used
as an instrument to allow manufacturers to restrict
downstream reprocessors from extending the life of
medical equipment so long as it’s consistent with FDA
requirements.
CONCLUSION
For all the foregoing reasons, AMDR respectfully
requests that this Court interpret “exceeds authorized
access” as narrowly as possible under the intrusion
theory of liability to preserve the longstanding right to
repair your medical device – and any other “protected
computer” – under the CFAA.

18
Respectfully Submitted,
STEPHEN D. TERMAN
Counsel of Record
J. MASON WEEDA
OLSSON FRANK WEEDA TERMAN MATZ PC
2000 Pennsylvania Ave., NW
Suite 3000
Washington, D.C. 20006
(202) 789-1212
sterman@ofwlaw.com
JEFFREY L. BERHOLD
JEFFREY L. BERHOLD, P.C.
1230 Peachtree St., Suite 1050
Atlanta, GA 30309
(404) 872-3800
Counsel for Amicus Curiae,
Association of Medical Device
Reprocessors
July 7, 2020

